                                            I



  Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




THE PERINATW SERVICE CAPACIH
   OF THE FEDEWLY   FUNDED
  COMMU~H    HEALTH CENTERS:

          URBAN CENTERS




               DECEMBER   1992

                       OFFICE OF INSPE~OR                   GENERAL

The mission   of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department    of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs.     This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components:        the Office of Audit Senkes,   the
Office of Investigations,  and the Office of Evaluation and Inspections.   The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.


                           OFFICE OF AUDIT SERVICES
The OIG’S   Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance     of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement     and to promote economy and efficiency throughout the Department.


                           OFFICE OF INVESTIGATIONS
The OIG’S     Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers.       The investigative efforts of 01 lead to criminal convictions,

administrative    sanctions, or civil money penalties.  The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.



               OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S    Office of Evaluation and Inspections (OEI) conducts short-term management         and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations      contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental   programs. This report was prepared in the Boston regional
office under the direction of Mark R. Yessian, Ph. D., Regional Inspector General, and Martha
B. Kvaal, Deputy Regional Inspector General.      Project staff

REGION                                                  HEADQUARTERS

Dana L. Miller, Projecf Leader                          Maruta Zitans
Timothy J. Corbett -                                    Barbara Tedesco
Madelaine T. Tully
Deborah Skahan

 For additional copies of this repor$ please contact the Boston regional office at 617/565-1050.
 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




THE PERINATAL SERVICE CAPACITY
   OF THE FEDERALLY  FUNDED
  COMMtJNrIy  HEALTH CENTERS:

          URBAN CENTERS





          DECEMBER   1992   OEI-01-9W2330

               EXECUTIVE                           SUMMARY
PURPOSE

This report describes recent trends in the perinatal service capacity of urban
community health centers funded under Section 330 of the Public Health Service Act.

BACKGROUND

The high rate of infant mortality in the United States continues to be a cause for

concern. The problem is particularly acute in the nation’s urban areas: the 22 largest

U.S. cities account for 14 percent of all live births, yet 19 percent of all infant deaths.

The Public Health Service (PHS) recommends timely, high-quality care before, during,

and after birth as an effective means of lowering the infant mortality rate and ensuring

healthier newborns.     A number of obstacles, however--including    rising medical

malpractice insurance costs, inadequate health insurance, and a decreasing supply of

obstetric providers--prevent   many women from obtaining perinatal care in a timely

fashion.


Community health centers play an important role in reducing infant mortality by

delivering comprehensive   perinatal care to high-risk women in medically underserved

areas across the nation. In 1991, PHS funded services at 212 urban centers; these

represented  40 percent of all Section-330 centers. The Federal government provides

additional support for the centers through PHS Section-329 and -340 grants for

migrant workers and the homeless, Medicare and Medicaid reimbursements,       Maternal

and Child Health grants, and the National Health Service Corps.


In recent years the Federal government has made an increasing investment in the

centers. Little information is available, however, on the extent to which the centers

are able to meet the perinatal care needs of the women they seine. To examine the

capacity of urban centers to provide perinatal care, we conducted a mail sumey of all

urban community health centers receiving Section-330 funds as of June 1991 (to which

84 percent responded);    made site visits to 8 centers; held discussions with PHS

administrators, State officials, and infant health experts; and reviewed relevant

literature and PHS data. Our findings are based primarily on information reported by

the centers to us and to PHS.


FINDINGS

7he capacily of urban cornrnun iy heahh centem to provkie pai.n.atd care has increa.wd h
several rt.xpects since 1988.

  �	   The number of prenatal clients served by the centers rose 23 percent between
       1988 and 1990, from an average of 477 per center to 586. The number of births
       to center clients rose 17 percent during the same period, from an average of 320



                                               i
       percenterto   374. Sumeyrespondents      reported   atotalof   87,560 prenatal   clients
       and 51,826 births in 1990.

       The range of perinatal services increased at 76 percent of the centers. The
       setices added at the largest number of centers were HIV counseling and testing,
       smoking-cessation  programs, and classes in parenting and childbirth.

       The range of ancillary services--such as home visiting and transportation-­
       increased at 37 percent of the centers.

       Sixty-five percent of the centers offered on-site assistance with enrollment in
       Medicaid in 1990, an increase from 23 percent in 1988. Eighty percent of the
       centers offered on-site assistance with enrollment in the Supplemental     Food
       Program for Women, Infants, and Children in 1990, an increase from 68 percent
       in 1988.

       Total revenues for urban centers increased 31 percent between 1988 and 1990;
       this includes an 18 percent increase in Section-330 grant funding and a 59 percent
       increase in Medicaid reimbursements.    Sixty-five percent of the centers reported
       that the amount of funding available for perinatal services has increased since
       1988.

Despite these increases in capacity, &mand for perinatal semices at urban centers hus
continued to grow and many clienfi still do not receive the optimal coordinated package
of care in a time$J fizshkm

  *� Six percent of the urban centers reported that they provided no perinatal services
     on site between 1988 and 1991. Our study did not examine the extent to which
     these centers made alternative perinatal care arrangements  for their clients.

  �	   Demand for services increased at 89 percent of the urban centers;       34 percent    of
       these centers reported their capacity to meet this growing demand       either
       decreased or remained the same.

  *	 Many centers reported that they do not coordinate, as part of their perinatal
     case-management   efforts, all of the health and social services recommended     by
     the Public Health Service. This may, in part, reflect variations in the definition of
     “case   management” among centers.

  ~	 on average, 51 percent of each center’s prenatal clients entered care in the first
     trimester of pregnancy in 1990. Nationally, 76 percent of all women, 62 percent
     of minority women, and 58 percent of women in Healthy Start project areas
     entered care during the first trimester.




                                               ii
 �	   on average, 26 percent of each center’s first-trimester enrollees received fewer
      than 9 prenatal visits. Our study did not examine the extent to which these
      patients may have received care elsewhere.

 ‘	 Thirty-six percent of the centers did not offer prenatal      appointments   at times
    convenient for working women.

Several major corwrai.rm seriously lirnif the capa@y of urban cenlm       to provide perinatal
care.

      Medical staff shm-ta~es. Medical staff shortages, in part as a result of cuts in the
      National Health Service Corps in the 1980’s, present serious problems at 59
      percent of centers. Although the number of prenatal clients increased an average
      of 23 percent at the centers, the number of obstetricians, family physicians, and
      certified nurse midwives increased an average of 12 percent. Twenty-four percent
      of centers reported that at least 1 obstetrician, family-physician, or nurse-midwife
      position had been vacant for longer than 1 year.

      Medical malt-mctice   insurance.  The high cost of medical malpractice insurance
      has been a serious drain on resources at 56 percent of the centers. In late 1992,
      Congress took initial steps to address this problem by passing legislation (P.L.
      102-501 ) that extends medical malpractice liability protection under the Federal
      Tort Claims Act (FTCA) to health care providers at the centers.

      Medicaid POIicies and procedures.       Seventy-six percent of the centers report
      serious problems stemming from Medicaid policies and procedures--such            as a
      burdensome    application process, low reimbursement       rates, a limited range of
      covered services, or limited eligibility.

      Inadequate   health insurance. On average, 21 percent of each center’s perinatal
      clients were uninsured in 1990. At 9 percent of the centers more than 50 percent
      of the perinatal clients were uninsured.

      Unsatisfactory  community supp ort. Seventy-nine percent of the centers report
      serious problems stemming from unsatisfactory coordination of perinatal services
      m the community, a lack of other local providers willing to treat uninsured and
      publicly insured women, difficulty arranging obstetric backup for center staff and
      for consultation for high-risk clients, or difficulty obtaining hospital privileges for
      center staff.

      Limited space. Limited space seriously hinders the provision of services at 64
      percent of the centers. In addition, limited collocation of sewices on site
      seriously restricts the comprehensiveness  of care at 23 percent of the centers.




                                                ...
                                                111
COMPANION REPORTS

This is one of three reports on the capacity of the community health centers to
provide perinatal care. Another report, 7%e Perinatal Service Capacity of the Federal&
Funded Community Healtil Cen[en: Rural Centers (OEI-01-90-0233 1), examines recent
trends in the perinata] care capacity of rural community health centers.

The third report, T4e Penna[al Service Capacity of the Federally Funded Community
Health Centen: An Overview (OEI-01-90-02332), summarizes and compares data on
the perinatal care capacities of the urban and rural centers. It also presents
information on two areas of special policy interest: Medicaid reimbursements     to
CHCS and Comprehensive       Perinatal Care Program funding of the centers.

That report identifies four major constraints that limit the perinatal care capacity of
the community health centers: inadequate staffing, the high cost of medical
malpractice insurance, ineffective ties between the centers and the Medicaid program,
and unsatisfactory relationships between the centers and other community providers.

To enable the centers to meet increasing demand for services, these limitations must
be addressed in the near term by a cooperative effort involving government at the
Federal, State, and local levels, as well as non-governmental  organizations. The third
report offers a recommendation     that the Public Health Semite (PHS) and the Health
Care Financing Administration     (HCFA) work with the Assistant Secretary for Planning
and Evaluation (ASPE) to draft and implement a plan of action that addresses the
identified limitations. The report also includes formal comments on the draft reports
from PHS, HCF~ and ASPE.




                                             iv
                             TABLE                     OF CONTENTS




    ~oWcrmN             . . .................                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   I	




         Purpose     . . . . . . .. . . . . . .
                                                 . . . . . . .OO. . . . . . . . . ..O.

                                                                                              . . . . . . . . . . . . . . . . . . 1

        Background        . . . . . . . . . . . . . . . .

                                                           . . . . . . . . . .
 . . . . . . . . . . . .
                                                                                                        . . . . . . .$.. . . . 1

        Companion        Reports . . . . . . . . . . . . . . . .

                                                                       . . . ..O . . . . . . . . . . . . . . . . .
                                                                                                                      . . . . . . 2

        Methodolo~          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3




  FmINGS

       The capaci~ ofurban communi~ health centers to provide

       perinatal care hasincreased inseveral respects since 1988 . . . . . . . . . . . . . . . . 4


       Despite these increases incapaci~,  demand forperinatal   semicesat

       urban centers continues to grow and many clients still do not

       receive the optimal coordinated package ofcare in a timely fashion                                    . . . . . . . . . 7


       Several major constraints seriously limit the capaci~ ofurban centers
       to provide perinatal care . . . . . . . . . . . . . .

                                                              . . . . . . . . . . . . . . . . . . .. . .. .
                                                                                                            . . 12


 ~NCLUSION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...19



APPEN131~

&     Federal    Support     for Perinatal        Care at Communi~              Health     Centers        . . . . . . . . A-]

B: Methodolo~             . . . . . . . . . . . . . . . .

                                                     .. . . . . . . . . . . . . . . . . . . . . .
                                                                                                   . . . . . . . .. B-1

C: Urban Sumey Resp(>nses . . . . . . . . . . . . . . . .

                                                                      . . . . . . . . . . . . . . . .. .. . .
                                                                                                                 . . c-1

D: Notes  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. D-1

                          INTRODUCTION

PURPOSE

This report describes recent trends in the perinatal service capacity of urban community
health centers funded under Section 330 of the Public Health Service Act.

BACKGROUND

Birth Outcames in Urban America: The high rate of infant mortality in the United

States continues to be a cause for concern. Each year, approximately         40,000 infants

die before their first birthday--about   1 percent of all infants born alive in the nation.

In the 1950’s, the U.S. ranked 5th among the world’s nations in lowest infant mortality;

today it ranks 23rd. The rate for black infants continues to be double that for white

infants.1 Infant mortality is particularly acute in the nation’s urban areas, where

poverty, unemployment,      substance abuse, and AIDS have taken a severe toll. The 22

largest U.S. cities account for 14 percent of all live births, yet 19 percent of all infant

deaths.~


Perinatal Care: A pregnant woman with no prenatal care is three times more likely to

have a baby born at low birthweight--a key indicator of the risk of infant death--than a

woman with adequate care. The Public Health Semite (PHS) recommends timely,

high-quality care before, during, and after birth as an effective way to lower the infant

mortality rate and ensure healthier infants. Such perinatal care should include early

and continuing risk assessment; health promotion; and medical, nutritional, and

psychosocial intewentions   and follow-up .3 A full course of care is especially vital for

women at risk because of medical or social factors.


Several obstacles, however--including    rising medical malpractice insurance costs,

inadequate health insurance coverage, a decreasing supply of obstetrical providers,      and

a lack of physicians willing to treat low-income women--limit the availability and

accessibility of perinatal care.q In 1989, almost 170,000 American women received        no

prenatal care until the third trimester, and another 86,000 received no care at all

during pregnancy.     Thirteen percent of whites received inadequate care; the

proportion of blacks and Hispanics was twice that,s


Community Health Centers:       Community health centers (CHCS) are key providers of

perinatal services to high-risk women in medically undersexed     areas across the nation.

The CHC program was established in 1965 to address the comprehensive          health needs

of the nation’s medically undeserved.    The centers were expected “to provide not only

the convenience of a one-door facility, instead of a city-wide scattering of services, but

also improved care and a better relationship between the providers and recipients of

health services.’*





                                              1

Federal administration    of the CHC program was consolidated in 1975 under Section
330 of the Public Health Service Act. The total number of centers, however, has not
been maintained at the level originally envisioned.’    Moreover, the program was cut
substantially in the early 1980’s; the number of grantees fell from 867 in 1981 to 530 n
1983, a 39 percent decrease.8 In 1991, PHS funded 212 urban community health
center grantees, which represented    40 percent of all Section-330 grantees.9 In 1992,
PHS funded a total of 549 centers.

The Federal government supports the services provided by community health centers
through PHS Section-330 grants as well as through Medicare and Medicaid
reimbursements,    Maternal and Child Health grants, PHS Section-329 and -340 grants
for migrant workers and the homeless, the National Health Service Corps, and the
Supplemental    Food Program for Women, Infants, and Children.

In recent years, funding for the centers has increased,l” and several initiatives have
been implemented     to expand center services and improve access to care. These
include supplemental    funding through the Comprehensive    Perinatal Care Program
(ePCP), expanded Medicaid coverage for pregnancy care, increased Medicaid
reimbursement    for center setvices through the Federally Qualified Health Center
provisions of the Omnibus Budget Reconciliation     Acts of 1989 and 1990, and Healthy
Start grants to support community coordination of perinatal care. (For more
information on Federal programs see appendix A.)

Little information is available, however, on the extent to which centers are able to
address the perinatal care needs of the women they seine. A clear understanding       of
the centers’ current capacity to provide perinatal care is vital to further planning and
program design. In this report, we examine recent trends in the capacity of urban
centers to provide these services.

COMPANION       REPORTS

This is one of three reports on the capacity of the community health centers to
provide perinatal care. Another report, The Perinatal Service Capaciy of the Federally
Funded Communiy Healtil Centers: Rural Cen/em (OEI-O 1-90-02331), examines recent
trends in the perinatal care capacity of rural community health centers.

The third report, 77Ze Perinataf Service Capacity of the Federally Funded Community
Health Centers: An Overview (OEI-01-90-02332), summarizes and compares data on
the perinatal care capacities of the urban and rural centers. It also presents
information on two areas of special policy interest: Medicaid reimbursements      to
CHCS and Comprehensive       Perinatal Care Program funding of the centers.

That report identifies four major constraints that limit the perinatal care capacity of
the community health centers, To enable the centers to meet increasing demand for
services, these limitations must be addressed in the near term by a cooperative effort
involving government at the Federal, State, and local levels, as well as non-


                                             2

governmental    organizations. That report offers a recommendation    that the Public

Health Service (PHS) and the Health Care Financing Administration        (HCFA) work

with the Assistant Secretary for Planning and Evaluation (ASPE) to draft and

implement a plan of action that addresses the identified limitations.   The report also

includes formal comments on the draft reports from PHS, HCF& and ASPE.




METHODOLOGY


This report is based on information gathered from a mail survey; site visits to several

urban community health centers; discussions with PHS administrators,    State officials,

and infant health experts; and a review of the relevant literature and PHS data.1*


We sent the mail survey to a]] 212 urban centers that received Section-330 funds in

June 1991; 178 (84 percent) responded.     Our findings are based primarily on the

responses of those 167 urban centers (79 percent of all urban centers) that offered

services on site during the 1988-91 period. (For detailed methodology see

appendix B.)


Our review was conducted in accordance with the Interim Standards for Inspections�
issued by the President’s Council on Integrity and Efficiency.





                                             3

                                          FINDINGS

THE CAPACITY OF URBAN COMMUNITY HEALTH CENTERS TO PROVIDE
PERINATAL CARE HAS INCREASED IN SEVERAL RESPECTS SINCE 1988.



+	 % ruunber of premxal clients served by the centers rose 23 percent between 1988 and
   19%9, firma an average of 477 per center to s86. ?he number of bti    to cen$er cti
   we 17 pement during the same pew        fmm an avemge of 32b per center to 374.
   Survey reyxmdents reported a total of 8~560 prenatal clknzs and 51,826 births in
   2990.



Seventy-eight      percent     of the
                                                              F&we 1
centers reported that the size of                 Average Numbs of Prenatal Clients
their prenatal client caseloads                         1988, 1989, and 1990
grew between        1988 and 1990                                                      5s6
(see figure 1). Caseloads grew                                      555
more     at those      centers    that
sewed      smaller    caseloads      in
1988, those that did not receive
Comprehensive        Perinatal Care
Program (CPCP) funding, and
those that served prenatal client
populations      that were more
than half Medicaid-enrolled          in              1*             19s9               1990

 1990.’2                                                           Yc!as
                                                  ti:OIOmd     Ulnn C5nmnmitylimkh Caws, Jim@19!?1.
                                                                    N- U5




Caseloads grew 95 percent between 1988 and 1990 at centers that served fewer than
200 clients in 1988, 25 percent at centers that served between 200 and 999 clients, and
.5 percent at centers that served 1000 or more prenatal clients.13

Caseloads grew 35 percent at centers that did not receive CPCP grants, and 22
percent at centers that did receive these grants. The average caseload size, however,
was larger at CPCP-funded    centers.14 Caseloads grew 35 percent at centers in which
more than half of the perinatal population was Medicaid-enrolled       in 1990, and 4
percent at centers in which less than half of the perinatal population was Medicaid­
enroiled.  The average caseload size, however, was smaller at centers with perinatal
populations that were more than half Medicaid-enrolled      in 1990.]5




                                              4
   .	 w rnnge of perinutd service irneusd     at 76 percenf of the cen@x    i% seties
      *at      the kugest number of cem    were HW combg          and tatig
      mking+watin       program, and classes in pareruing and cmti

  Mediud      and Health Promotion SeMeeX Between 1988 and 1990 there was an
  increase    in the percentage of centers prow”ding each of a representative   range of
  perinatal    medical and health promotion services, either on site or off site through paid
  referrals   or contracts.lG
                               HIV counseling and testing semices and smoking-cessation
  programs     were added at the largest percentage of centers (see figure 2).




                 r                                 Figure 2
                        Percentage of Centers that proti~     each Perinati Service
                                 Either On Site or Off Site, 1988 and 1990
                                                                                           1




                            Percenhge of CenterS Provitig      Each Service
                       SOWU   OIG Swey   of UrbWI CunnItiqI   Health f?en~    June 1991.
                                                   N= 167




Services on site: At the same time, 62 percent of the centers added at least 1 medical
or health promotional service on site. The services added on site at the largest number
of centers were family planning, health education, nutritional services, and HIV
counseling and testing. In 1990, more than 90 percent of centers offered each of these
semices on site (see appendti C for survey responses).




                                                    5

�	   The range of ancillary serviaw-such       as home visiting and transpomuion-weasexl   at
     37 pexent of the centers.

Thirty-seven percent of all the centers added at least one service that facilitates access
to perinatal care between 1988 and 1990.17 Home-visiting setices were added at
the largest percentage of centers, and child care during appointments   was added at the
smallest percentage of centers (see figure 3).          - --

           II

                                                  Kgure 3

                                    Percentage of Centers that Rovided

                                   Each hCi.kil’y Service, 1988 and 1990

                               1



                              1~          fuud?a@dlspcabxa
                               I
                               I




�	   S@-jive percent of the centerx oflered on-site assistance with enrdnent in Medkakl
     in 1990, an increase from 23 pement in 198& Eighty percent of the centezs offered on-
     site &timce    with enrdbnent in the Supplemental Food Program for Womq       lnfa~
     and Children (JV7C) in 1990, an increme from 68 penznt in 1988.

A larger percentage of CPCP-funded    centers than other centers provided on-site
assistance with Medicaid and WIC enrollment.     In 1990, 70 percent of CPCP-funded
centers provided assistance with Medicaid enrollment and 84 percent provided
assistance with WIC. By contrast, only 50 percent of the other centers provided
assistance with Medicaid enrollment and 69 percent of them provided assistance with
WIC.’*

Between 1988 and 1990, however, a larger percentage of centers that did not receive
CPCP funds added on-site assistance with Medicaid enrollment.19




                                                       6

�	   Total revenua for the &an centem weased        31 pexen/ between 1988 and l~;      ti
     incti    an 18 percent increase in Section-330 grant jhnding and a 59 percent increase
     in Medicaki reirnbursementx    S&y-five penznt of the centers reported that the amount
     of @ding available for perinatd services has increased since 198tl

The PHS Section-330 grant represented   39 percent of total revenues for these centers
in 1988 and 35 percent in 1990. Medicaid reimbursements     amounted to 20 percent of
total revenues in 1988 and 25 percent in 1990.n

Increased funding for perinatal services was correlated with increased capacity. As
one administrator    reported, center capacity had grown as a result of “increased
funding from multiple sources.” Some centers reported that implementation         of the
Federally Qualified Health Centers mandate had resulted in increased Medicaid
reimbursements,    which had been used to improve and expand center semices. Many
of the centers we visited drew a direct link between the Medicaid eligibility expansions
and an increased capacity to care for more women. Some centers reported that they
were finally receiving reimbursement     for women they would have otherwise served,
but for whom, in the past, they would not have received reimbursement.


DESPITE THESE INCREASES IN CAPACITY, DEMAND FOR PERINATAL
SERVICES AT URBAN CENTERS HAS CO NTINUED TO GROW AND MANY
CLIENTS STILL DO NOT RECEIVE THE OPTIMAL COORDINATED
PACKAGE OF CARE IN A TIMELY FASHION.



�	   Six percent of the urban centerx reprted that they provided no petital services on &
     between 1988 and 1991. Our study did not examine the extent to which these centm
     made alternative perindal care arrangements for their clienfi.

Eleven of the urban centers that responded to our survey did not offer perinatal
services on site from 1988 to 1991.21 Nine of these indicated that they referred
clients to hospitals or other providers for perinatal services. Four expressed an
interest in offering perinatal services, but noted that budgetary constraints or the
inability to recruit obstetric providers prevented them from doing so. One
administrator   voiced a common sentiment when he stated: “there is a tremendous
need in our community for perinatal services, but we cannot afford to offer them.”




                                               7

w Demand for sewictx increased at 89 percent of the urban centem; 34 percent of these
  cerzltm repmzi their capacity to meet ti growing dkmund dher &creased or
  remained the same.

Several centers reported that they were overwhelmed by demand.      Many have been
periodically forced to turn away new perinatal clients because they do not have the
capacity to serve them.

Fifty-two percent of the centers reported that Medicaid eligibility expansions had
seriously increased demand for perinatal services, and 48 percent reported that
Medicaid presumptive and continuous eligibility provisions had done S0.22 Centers
also explained increased demand as a result of the downturn in the economy. A
growing number of unemployed women have neither the income nor the health
insurance to afford private medical care, and therefore seek subsidized care at the
centers. Reflecting the perceptions of several administrators  we interviewed, one
reported that “demand has increased due to the drug epidemic, an increase in teen
pregnancy, and an increase in the number of older women having children.”

Also contributing to the increase in demand is the diminishing number of community
providers who are willing to treat low-income and Medicaid patients.     one center we
visited was the sole provider of obstetric care in its service area. Many centers
reported that, although there were private obstetricians in their service areas, none
would care for Medicaid or uninsured women. One administrator         summarized
comments made by many we visited when he noted: “Our center is experiencing the
effects of the withdrawal of private physicians from the Medicaid program, with a
tremendous overflow of patients.”



w Fifiy-six percent of urban centezs reported that they do not coordinate as pati of their
  perinatal case-management efforts, all of the health and social services recommended
  by the Fublk Health Service. l%k may, in paq rqilect variations in the di$iition of
  “case management” among centem

According to the PHS, perinatal care should include risk assessment; health
promotion; and medical, nutritional, and psychosocial services and follow-up.x   To
maximize the accessibility, quality, and comprehensiveness  of services, the PHS
requires centers to coordinate care through case management.z4

Most centers provide some of the services recommended         by the PHS, but 56 percent
of them do not coordinate all of these services as part of a comprehensive
case-management     system. Forty-five percent reported that they do not coordinate
discharge planning and 24 percent reported that they do not coordinate delivery
services as part of their ~ase-management    efforts (see figure 4).




                                             8

1,

I
                                               Pigure 4
               Percentage of Centers that DO NOT Case Manage Each Perinatal Service
I




                    -w     *     ~45%
                                o%      10%     m%        30%    40%     50%      60%
                                Percentage of Centers that DO NOT Case Mansge Each Service
II

l~-”’’s””’u’=-””’-’”’”
There is no common definition of what case management       entails. One center director

expressed the view of many we met when he said: “case management        means a million

different things to different people.” Thus, centers might coordinate the delivery of

services and not refer to such coordination as case management.


 Nonetheless, 23 percent of the centers reported that limited case management

 seriously constrains their capacity to provide comprehensive     care, and 10 percent

 reported that it has become a greater problem since 1988. Nineteen percent of the

 centers provided case management      only for particular groups of clients, such as teens,

 substance abusers, or women identified as high-risk. An administrator        at one center

 summarized a common problem when he explained that his limited social services staff

 “can only afford to give intensive services to those most in need.” This center was

 unable to provide case management      for clients referred to other providers for care.

 Other centers reported that staff who provide case-management         services often lose

 track of high-risk clients when they refer them elsewhere for services.


    Centers reported several problems that indicate inadequate coordination of care. The

    timely transfer of medical records to delivery facilities is a problem at 25 percent of

    the centers, and the transfer of records to other facilities is a problem at 31 percent.

    Further, centers reported that they do not reschedule appointments       for an average of

    29 percent of the perinatal clients who miss them. Follow-up care is also a problem:

    on average, 29 percent of each center’s prenatal clients and 26 percent of their infants

    did not receive follow-up care at the centers within the first 8 weeks after birth in

    1990,Z




                                                    9

    Athough the CPCP was intended, in part, to support centers’ case-management

    efforts, we found that CPCP-funded   centers were no more likely than other centers    to

    provide case management   for all the services recommended  by the PHS.




    �	   On averag< 51 pe~ent of each center’s prenatal clierm entered care in the fmt
         tri.rnater of pregnancy in 1990. Nationally, 76 pement of all womq  62 pexent of
         rnirwr@ wome~ and 58 pexent of wornen in Healthy Stati project areas entered care
         during the fit trimester.%

    The PHS had set a goal to achieve 90 percent first-trimester    enrollment for all women
    by the year 1990. This goal was not met, and has now been set for the year 2000. on
    average, 39 percent of each center’s 1990 prenatal clients did not enter care until the
    second trimester and 10 percent did not enter care until the third. This compares with
    1989 national rates of 18 percent of women entering in the second trimester and 4
    percent in the third.27 Although the CPCP was intended, in part, to encourage
    earlier entry into care, responses to our survey indicate that there was no significant
    difference between CPCP-funded      centers and other centers with regard to the
    percentage of perinatal clients who entered care in the first trimester.   Our study does
    not allow a comparison of CPCP grant recipients and other centers with regard to
    trends over time in first-trimester entry into care.

    Several centers reported that motivating women to seek early prenatal care is among
    their biggest problems.     Women with inadequate health insurance sometimes delay
    entry into care in an attempt to minimize the costs associated with care. Staff at
    several centers we visited agreed with one administrator   who explained that some
    women who have had children before “believe that they are experts in perinatal care,
    and do not consult with physicians.” Teenagers, who sometimes try to conceal their
    pregnancies, are apprehensive    about prenatal appointments.   Cultural biases against
    medical intervention    lead some immigrant women to avoid care.

    Additional barriers to care were suggested:     staff at one center explained late entry
    into care as a factor of language barriers and the “fear of deportation     of women who
    are not legal residents.” The staff at another center explained that many of their
    clients are “so overwhelmed by life crises, including drugs, poverty, mental illness, and
    hopelessness,   that perinatal care is not a priority.”

    Although sumey responses indicate that most centers conduct outreach, several centers
    indicated that their efforts are minimal. One administrator  explained what was
    apparent at many centers we visited when he reported that, because his center was
    already ovemhelmed      by demand, outreach efforts had been temporarily suspended.




                                                 10



—
�	   On averagg 26 pement of each centds fiht-trirnester erudkx   received fewer than 9
     prenatal viri.m. Ow study did not examine the extent W which these patienk3 may have
     received care ekwhere.

The American College of Obstetricians and Gynecologists recommends that women
entering care in the first trimester receive a minimum of 9 prenatal visits.m on
average, however, 26 percent of each center’s first-trimester  enrollees did not receive
at least 9 prenatal visits in 1990. Although the CPCP was intended, in part, to
encourage more prenatal visits, there was no significant difference between CPCP-
funded centers and other centers with regard to the percentage of first-trimester
enrollees who received at least 9 visits in either 1988 or 1990.

Women with limited financial resources and inadequate insurance coverage often
minimize the number of their prenatal visits, especially when care is billed per visit
instead of as a package for the full course of the pregnancy. one center administrator
reported a problem common to many centers when he explained that long waits, both
between scheduled appointments     and in the crowded waiting room, discourage women
from seeking care.

Difficulties with child care and transportation     were cited as resulting in a reduced
number of perinatal visits by many with whom we spoke. At one center, the staff
noted that an inability to arrange child care discourages women from making and
keeping appointments.      One administrator    said that public transportation  to the center
was very time-consuming.     Another administrator      reflected a common perception
when she reported that “these women must constantly address basic living needs, and
so lack interest in prenatal care.” Drug abuse was cited at several centers as another
factor that diminishes women’s interest in prenatal care.



 ~ 17@-six percent of the centers did not ofier prenatal appointments      at times convenient
   for wotig  women.

Availability of Prenatal Appointments: In 1990, 36 percent of the centers provided no

scheduled prenatal appointments   in the early morning, in the evening, or on Saturdays.

Such restricted appointment  hours may force working women to choose between work

and prenatal care.


 Waiting Times: Thirty-five percent of the urban centers have waiting times for initial

 prenatal visits of two to four weeks and five percent have waiting times for initial visits

 of more than one month. Long waits for initial appointments     can cause adverse

 effects. If a woman tests positive for pregnancy in her second month and then must

 wait four weeks for her first prenatal appointment,  she may enter care in her second

 trimester.  The implications of such waits are more problematic when pregnancy is

 detected later and when the mother is at high risk, as many center clients are.





                                               11

  In addition, 20 percent of the centers reported that office waiting times grew longer

  between 1988 and 1990. One center administrator      said that “long waiting periods in

  clinic may be one reason patients neglect prenatal care.” Another administrator

  reported that the most common client complaints concerned office waiting times and a

  crowded waiting room. These comments are consistent with the perceptions of many

  we inter-viewed.




  sEVm/u         MAJOR CON~
                                               SERIOUSLY LIMIT THE CAPAC~                           OF
  WAN          CENTERS TO PROVIDE             PERINATM  C-.



  �	    Mdcai    stiff shortagq in pan as a result of cti in the National HeaLth Service Coqx
        in the 1980’4 preseru seriou problems at 59 pexent of centem

 Although demand for perinatal services increased 23 percent at urban centers, the
 number of full-time equivalent obstetricians, family physicians, and certified nurse
 midwives rose only 12 percent (see append~ C for survey responses).        Forty-seven
 percent of the centers reported that at least 1 of these clinical positions was currently
 vacant (see table 1); and 24 percent reported that at least 1 of these positions had
 been vacant for over 1 year. In addition, 37 percent of the centers reported that
 medical staff shortages have become more severe since 1988, and 28 percent cited
 high medical staff turnover as a serious problem.



                                           Table 1

       Percentage of Centers Reporting at Least One Clinical Provider Position Vacant?g





!,i~ Nurse Midwife                               c:           t“:?                     “::z-
                                                                       11%                     6%
                     Source: OTG Survey of Urban Community Health Centers, June 1991
                                                 N=167

Recruitment and Retention Problems: Centers have historically faced serious

problems recruiting and retaining medical staff. The work is demanding, and wages

and benefits are generally not comparable to those in the private sector. One survey

respondent reflected the view of several center clinicians with whom we spoke when

he noted that providers who care for poor pregnant women put themselves “at risk of

burn-out and bankruptcy.”





                                                  12�
A shortage of staff means more frequent on-call rotations, which in turn makes a
center less attractive to prospective employees.     Insufficient support from the wider
medical establishment    also contributes to reluctance on the part of providers to accept
positions at centers where they might not be assured staff privileges at local hospitals
or adequate backup from local providers.      Unattractive facilities and locations in high-
crime areas also hinder recruitment efforts.

National Health Service (2xps: Centers have historically relied upon the National
Health Service Corps for a large percentage of their providers, but this program
experienced major funding cuts during the 1980’s. Several center administrators    with
whom we spoke reported that they have often been unable to retain corps providers
beyond their obligated terms of service and have found it difficult to replace them.
(See appendix A for more information.)

Staffing Models: Obstetricians are in short supply, and many are unwilling to work in
community health center settings. They are also the most expensive providers to
support:    Their salaries and medical malpractice insurance premiums are substantially
higher than those of other providers.     The medical director of one site we visited
expressed a view common among experts when he remarked that nurse midwives,
physician assistants, and nurse practitioners are “the future of inner city care” because
of their lower cost. Family-physician and certified-nurse-midwife    models of care also
pose problems:     The supply of family physicians and nurse midwives is limited; many
obstetricians do not believe that family physicians or certified nurse midwives should
perform deliveries and are reluctant to provide backup services for them; and many
hospitals will not extend delivery privileges to them. Thus, these more affordable
staffing models are impractical for many centers.



�   % cost of medical malpractice    insurance has been a serious &ain on r~oumes      at 56
    percent of the centem

Twenty-eight percent of the centers indicated that the cost of medical malpractice

insurance has become a more serious limitation since 1988. A substantial increase in

commercial medical liability insurance rates and cutbacks in the National Health

Service Corps have resulted in dramatically increased expenditures on medical liability

coverage for all centers. In 1990, insurance premiums amounted to an estimated 10

percent of all centers’ total Federal grant funding--or 4.4 percent of center

revenues.w


These costs have made it difficult for centers to expand    their staffs, since scarce funds

must be spent on insurance instead of salaries. Centers      that contract for care have

had difficulty paying the rising wages necessary to meet    the insurance costs of private

physicians. One center reported that it has been unable       to obtain coverage at any

cost.





                                              13

    Concerns about restricted staff productivity and increasing costs were echoed by many
    of the survey respondents and center administrators    with whom we spoke. One
    center’s insurance carrier placed a cap on the number of deliveries its family
    physicians could perform each year. A recent change in insurance coverage for
    midwives led to a substantial increase in another center’s insurance rates.3~
    Escalating malpractice costs led another center to ask, “what can be done to control
    malpractice costs for providers willing to volunteer time at the center?”

    In late 1992, Congress took initial steps to address this problem by passing legislation
    that extends medical malpractice liability protection under the Federal Tort Claims
    Act (fTCA) to health care providers at the centers.32



    w	 Seventy-six perceru of the centers reprt sericm problems stemming fmm Mdcaid
       policies and procedurm--such as a burdensome application process, bw reimbursement
       mtes, a limiled range of covered services, or limited eligibil@

    On average, 67 percent of each center’s perinatal clients were enrolled in Medicaid in
    1990.33 Despite recent changes in the Medicaid system intended to increase access
    to care, however, many Medicaid-related   factors continue to hinder the centers’ ability
    to provide comprehensive,  timely care (see table 2).


                   I                         Table 2                                       1
                   ~    Percentage of Centers Citing Each of the Following                 I
                             Medicaid Factors as a Serious Limitation

                   ~~ Burdensome       application    procedures                ! 56%      II
                   # Inadequate      reimbursement          rates               I 47%      II

                   ~   Slow reimbursement        process                           43%     I

                       Restrictive   eligibility criteria                          41%

                   I, Limited    range of covered       services                / 38T0     ~

                        Source: C)IG Survey of Urban Community Health Centers, June 1991
                                                     N=167


    Application Process: The process of applying for Medicaid benefits is burdensome
    and confusing to both centers and their clients. As one center administrator     noted,
    the complexity of the process frequently leads to patients’ “failure to follow through
    with procedures for obtaining benefits.” “The process is so time-consuming,”     another
    reported, that the experience of “women receiving Medicaid cards in their third
    trimester is very common.” Several centers reported similar problems.       A number of
    State Medicaid agencies had not begun to place eligibility workers at centers, even
    though recent Federal law had required them to begin doing so.~




                                                        14


—
According to a prior OIG report, only 26 States had adopted presumptive eligibility as

of June 1991.35 Our research indicates, however, that even some States that had

adopted this option were not using it aggressively. At one center we visited--in a State

that had officially implemented   presumptive eligibility--a State eligibility worker in the

clinic had never heard of it. An administrator      at another center noted that even

workers in the central welfare office were not familiar with this option. Such

confusion among State welfare employees was reported by many of the center

administrators   with whom we spoke. Several respondents also reported that the

presumptive eligibility process was so frustrating that many women miss medical

appointments.     Some centers have encountered       difficulty finding other providers who

accept presumptive eligibility clients on referral.


Reimbursement       The staff at several of the centers we visited noted that many

necessary services are not covered by Medicaid. One administrator       reported that “it is

not possible to bill for all services rendered nor to collect reimbursements    that will

offset expenses;” another commented that “most specialty semices are grant funded-­

we would not have them without grants.”


The Federally Qualified Health Center (FQHC) provisions of the Omnibus Budget

Reconciliation  Acts of 1989 and 1990 called on the States to begin paying cost-based

reimbursement    to CHCS as of April 1, 1990. According to PHS records, however, only

27 States and the District of Columbia had begun paying higher FQHC-Medicaid        rates

as of May 1991. Most of these payments were at interim rates .% Since our survey,

additional States may have begun to implement these provisions.


EligiiiMy Many centers reported that Medicaid eligibility requirements        are still too

restrictive. Staff at one center echoed a common concern when they reported that

centers are expected “to charge clients who can’t pay.” Further, according to OIG

research, three States have not yet dropped an asset test for eligibility.37




~ On average, 21 percent of cenler perinulal clients were uninsured in 1990.

At 33 percent of the centers more than 25 percent of the perinatal clients were
uninsured.  At 9 percent of the centers more than 50 percent of the clients were
uninsured.  These clients received services at reduced rates, according to a sliding
scale.



 w Seventy-nine perceru of the centen reprt serious problems stemming @m
   unsati$actoiy coordinalwn of perinatal services in the commun ity, a tick of other ikal
   pmvidm willing to treat uninsured and publicly insured wornq dificu.i@ an-anging
   obstetric backup for center stafl and for consultation for high-tik ctints, or dim
   obtaining hospital pn”vikges for center stafi




                                               15

Community Coordination: The PHS expects that centers be “active participants in
their community’s health care system. . . . This typically means fostering partnerships
and participating in consortia and task forces addressing the area’s health care issues.”
These consortia should include local health departments,   social services departments,
hospitals, and other public and private health care providers.%

Twenty-six percent of the centers, however, do not participate in perinatal care
consortia. Ten percent of the centers cited limited relationships with local community
and government organizations as a factor that seriously hinders the provision of
services. Centers reported wide differences in consortia membership    (see table 3).


                                       Table 3
             Percentage of Centers Reporting the Participation of Each of the
                  Following in a Cmnxnunity Perinatal Care Consortium

      ~ Teaching      hospitals            1 54%     I Government      social services    349Z0

          Local health departments	        i 53% ~ Private-practice physicians
                                           ~      ,~
                                           \
      ~   Other    health clinics          ~ 4396 ~ Nonteaching hospitals                 25%
                                                   I
      II Private    nonprofit     groups   ‘ 42% II Local schools                        I 20%    II
                                           !
      I
          State health departments         I
                                               35%   ~~Other                             1 10%
      i

                      Source: OIG Survey of Urban Community Health Centers, June 1991
                                                  N=167


Many centers indicated that, although they participate in perinatal care consortia,
these involve minimal activity and have limited results. Several centers noted that they
participate in consortia addressing only specific problems--most    commonly, substance
abuse. Eighty percent reported that their consortium activities do not include local
schools; 74 percent that they do not include private-practice    physicians; and 65 percent
that they do not include State health departments.39

The Imczd Medical Establishment: Sixty-one percent of the centers reported that a
lack of other local providers willing to treat low-income and uninsured women
seriously limits the comprehensiveness   of center care; 35 percent reported that this
shortage has become a more severe problem since 1988.

The PHS notes that “a key element in the quality and continuity of care is the
integration of the clinical staff into the larger medical community . . . to assure follow-
up of referred care and the availability of timely and quality consultations.”4°
Centers indicated, however, that they Fdce serious difficulties arranging both backup
and referrals.   Thirty-one percent of the centers reported serious difficulty arranging
obstetric backup for certified nurse midwives and 22 percent reported such problems
for family physicians. Twenty-one percent cited difficulty arranging consultation for
high-risk clients as a serious limitation.


                                                     16

Many of thecenter     administrators  weintetiewed       reported that they are constrained

by “negative attitudes on the part of providers, hospitals, and public agencies toward

low-income pregnant women.” Consistent with this concern, one center administrator

noted that his center’s biggest problem is the “provision or identification of referral/

ancillary semices for patients, particularly    for the uninsured.”  Another  administrator

noted that, “even when Medicaid rates went up, private doctors didn’t come back” to

the business of treating poor women. Similarly, the director of another center said

that she had experienced great difficulty convincing local doctors to provide backup

coverage and to take center referrals.       Ultimately, she reminded doctors and the local

for-profit hospital that they would be further burdened with nonpaying patients if they

did not do their part in facilitating the center’s provision of care.


Hospital Admitting Privileges:41 The PHS recommends that, “to assure continuity of

care, center physicians should have admitting privileges and medical staff membership

at one or more hospitals.”42 Centers, however, reported many difficulties arranging

admitting privileges. Fifteen percent reported a decrease between 1988 and 1990 in

the percentage of staff providers with such privileges. Thirty-nine percent indicated

that difficulty obtaining admitting privileges for staff obstetricians, family physicians, or

nurse midwives is a serious limitation to care.


Inconsistent and restrictive hospital protocols for nurse-midwife practice were cited as

a problem by many center administrators.       Thirty-three percent of the centers cited

difficulty obtaining privileges for nurse midwives as a serious problem.    One

administrator    reported that each hospital in the community has a different protocol for

nurse-midwife practice. Another noted that, although a local hospital allows midwives

to deliver, it has very stringent requirements   for obstetric backup; the center is limited

by its inability to retain such backup.


Some hospitals are reportedly reluctant to extend privileges to any providers whose

patients might become a financial drain: one center noted that a local hospital allows

center physicians to deliver only patients with Medicaid or private insurance coverage;

another noted that no local hospital takes uninsured patients.




w� L&z&d space seriourly hinders the provirwn of services at 64 pexent of the centers.
   In additiq   limited coilocalwn of services on site seriously restricts the
   comprehensiveness of care at 23 pe~ent of the centers.

Thirty-eight percent of the centers reported that inadequate space has become a more
serious problem since 1988. Illustrating the ways in which inadequate space can
hinder service delivery, one administrator   indicated that the small number of
examination rooms at that center limits its providers’ productivity.   The center had
temporarily stopped accepting new prenatal clients because of the lack of space.
Another center had struggled for years to increase its clinical staff capacity; having
recently done so, it must still limit the number of clients served because of space
constraints.  Still another noted that, in a recent survey of patient satisfaction, the


                                               17

most common complaints were long waiting times and congestion in the waiting room.
State PrimaV Care officials who had recently visited this center remarked that it was
“so crowded that we had to go in through the employees’ entrance.”

Fifty-nine percent of the    centers reported that no other public organizations,    aside
from Medicaid or WIC,       and no private groups provided services on site in 1990.
Those centers that cited     limited space as a serious problem were significantly more
likely than other centers    to cite limited collocation of semices on site as a serious
constraint.




                                                18

                             CONCLUSION


Section-330-funded   community health centers play an important role in the provision
of perinatal care in urban areas across the country. In this report we have stressed
three themes concerning their performance of this role.

First, the centers’ capacity to provide perinatal services has increased substantially
since 1988. In terms of the number of clients served, the range of services offered,
and budgetary resources, the centers have demonstrated      considerable growth.

Second, increased demand has accompanied the growth in capacity. As a result, many
center clients still do not receive all the setices recommended by the Public Health
Service. Limitations are particularly apparent in the scope of case-managed   services
offered by the centers and in the proportion of women who receive care during the
first trimester of pregnancy.

Finally, there are several basic factors that constrain the centers’ ability to provide
more services in a more timely manner to more women. These constraints,
documented     in many previous studies as well as in ours, include staffing problems,
Medicaid policies and procedures, medical malpractice insurance, relationships with
other medical providers, and clinic space.




                                             19

                              APPENDIX                   A


                  FEDEIUL  SUPPORT FOR PERINATAL CARE
                      AT COMMUNITY HEALTH CENTERS

The Federal Government      supports the perinatal services provided by community
health centers both directly through Section-330 grants and indirectly through other
mechanisms, including Medicare and Medicaid reimbursements,         Maternal and Child
Health grants, supplemental    nutrition programs and targeted funds. In recent years,
several initiatives have been implemented to improve center perinatal sewices and the
access of women to those semices, including the following:

Medicaid Expansions:         Congress has mandated several changes in the Medicaid
program.    These include (1) expanded eligibility States are now mandated to extend
coverage to all pregnant women below 133 percent of the Federal poverty level, and
have the option of extending coverage to women between 133 and 185 percent of the
poverty level; (2) continuous eligibility         eligibility for coverage is wow guaranteed
throughout pregnancy and the postpartum period, regardless of income changes;
(3) pr=mptiw      eligiiihty      eligibility for temporary coverage, limited to a maximum of
61 days for ambulato~         sewices only, is based solely on self-reported     income;
(4) expanded coverage: case-management                services are now reimbursable;   and
(5) outstationing: States must place eligibility workers at locations other than AFDC
enrollment sites, including CHCS.

Federal& Qualified Heal[/l Cen[en (FQHC): The Omnibus    Budget Reconciliation   Acts
of 1989 and 1990 require State Medicaid programs to cover a core set of services
provided by community health centers and to reimburse centers for the reasonable
cost of covered services.

7he Comprehensive Perina[al Care Program (CPCP): In 1988, the PHS launched           this
initiative to improve birth outcomes by encouraging earlier entry into care and more
perinatal visits. The CPCP provides supplemental      funding for enhanced services,
including improved outreach and case management.         Funds were first awarded in
1989. In FY 1991, 290 of the urban, rural, and migrant health centers received a total
of $33 million in CPCP supplemental    funding;43 80 percent of the urban respondents
to our survey that offered perinatal services received CPCP funding for at least 1 year
between 1988 and 1991. In fiscal years 1992 and 1993, $44.7 million was appropriated
for CPCP.44

Healthy Start: In September  1991, HHS awarded competitive grants to 15
communities on the basis of their proposals for coordinated community programs          to
improve maternal and infant health care.




                                             A-1

Several other ongoing Federa]      efforts   play important   roles   in the centers’   provision   of
perinatal care, including:

National Health Setvice Corps (NHSC):       The PHSoffers    both scholarships and
educational loan repayment to health providers who commit to work in designated
Health Professional Shortage Areas for a given period. A large percentage of corps
providers have traditionally worked incommuni~        health centers. After substantial
cuts in program size in the early 1980’s, the NHSC received increased funding in 1990;
the number of loan repayment candidates is limited, however, and most scholarship
recipients will not be available for service until the mid-1990’s.

Supplemental Food Program       for Women, Infants, and Children ( WIC): The
Department      of Agriculture  provides vouchers  through this program   to address          the
nutritional   needs of pregnant    and lactating women and their infants.




                                                 A -2

                              APPENDIX                   B


                                    METHODOU3GY


We obtained information for this report through a mail survey of Section-330 grantees,

site visits to several centers, a series of interviews, and a review of relevant literature

and data.


Mail Survey We sent a mail survey of perinatal sexvices to all community health

centers receiving Section-330 funding as of June 1991. Of the 212 urban centers, 178

(84 percent) responded, including centers in every HHS region and every State and

territory in which urban centers are located, with the exception of Washington, D.C.

A review of geographic and demographic information suggests no significant

differences between respondents and nonrespondents.


Of the 178 urban respondents,    11 (6 percent) provided no perinatal services on site

during the 1988-91 period. The numbers and percentages in the body of this report,

unless otherwise noted, reflect the responses of those 167 centers (79 percent of all

urban centers) that offered services on site in at least 1 year during the 1988-91

period.


Of the 167 respondents    that provided services on site during the study period, 133

(80 percent) were CPCP-funded.       For the purposes of this report, a CPCP-funded

center is any center that received CPCP grant funding at any time, regardless of the

year in which the initial grant was awarded.


Not all respondents   provided complete information.  We calculated trends presented

in the body of this report from the responses of those centers that provided the

relevant information for all years.


Unless otherwise noted, the statements in the body of this report that compare groups

of centers (such as CPCP-funded     centers and other centers) reflect statistical

significance at the .05 level. In reporting responses to survey questions that solicited

information on a scale, we combined responses of “moderately” and “substantially” and

reported them as “seriously” or “serious.”


Site Visits: The study team conducted site visits to eight urban centers: three in

Massachusetts,   two in Connecticut, and one each in Texas, Wisconsin, and Oregon.

The team toured these facilities and interviewed management     and clinical staff. We

chose these centers based on discussions with regional PHS staff and with

consideration  of geographic representation  and community size. Of the eight centers,

seven had received CPCP funding.





                                            B-1

Intemiews: ~estudy        team held discussions with (l)officials  in PHS's Bureau of
Primary Health Care (BPHC) (then called the Bureau of Health Care Delivery and
Assistance), both in headquarters     and in those regional offices responsible for the
oversight of site-visit centers; (2) State primary care association and cooperative
agreement staff in those States and regions in which site-visit centers are located; and
(3) infant and community health experts, including staff at the Children’s Defense
Fund, the National Commission to Prevent Infant Mortality, and the National
Association of Community Health Centers.

Literature and Data Review The team reviewed extensive literature in the areas of
infant and community health. The Public Health Service provided us with financial
data that were collected from the centers through the Bureau’s Common Reporting
Requirements    reports, and with financial and user data that were collected from CPCP
applicants through the Perinatal User Profile reports.




                                          B-2

                                     APPENDIX                        C

                                     URBAN SURVEY RESPONSES


The Office of Inspector General survey was mailed to 212 urban community health centers in

May 1991. Of the 178 (84 percent) that responded, 11 provided no perinatal services on site

during the 1988-91 period. Below we present the frequencies and mean responses for those

167 centers that did provide services at some point during this period. Not all centers

answered every question.      The number of respondents to each field (N) is indicated in

parentheses  as appropriate.


Any discrepancies between the responses below and the data presented in the body of this

report are a result of the methods used in aggregating data and calculating trends. Please see

appendix C for a discussion of statistical methodology.





Number   of centers   that offered    perinatal   semices on site in each year:


         1988: Yes=152       No=15
         1989: Yes=159       NO=8
         1990: Yes=165       No=2
         1991: Yes=164       No=3




A CASELOAD                                                    1988            1989             1990

1. Please indicate:
                                                                              MEAN       (N)
a.	 the number of women who received prena[al
     care at your center:                                     481    (126)    530    ( 149)    558    (157)
b.	 the percentage of these clients who were
     high-rislq as defined by your center:                    37%     (92)    39%     (115)    39%     (128)
c.	 the percentage of these clients who were
     low-risk as defined by your center:                      49%     (88)    48%     (109)    49%     (125)
d.	 the number of births to your center’s
     clients:                                                 321    (120)    354    (135)     362    (143)

2.	 Of the women who gave birth in your service
    area, what percentage received prenatal care
    at your center?                                           25%     (71)    29%     (81)     32%     (79)




                                                      c-1
B. COMMUNITY COORDINATION

1. Does your center     currently    participate     in a consortium      of perinatal    care providers?

        Yes = 123          No =44              If YES, please continue.

2. Which of the following participate          in the consortium?        (Please     check all that apply):

        a.   state health department:           58                   f. nonteaching hospitals:                         41
        b.   local health department:           88                   g. private-practice  physicians:                  44
        c.   health clinics:                    72                   h. gov. social setvice agencies:                  56
        d.   schools:                           34                   i. non-profit organizations:                      69
        e.   teaching hospitals:                90                   j. other:                                         16

3. On the last page of this survey, briefly describe               the coordination      of consortium    activities     and
your center’s involvement.



C. CLINIC      SITES    AND HOURS                                    1988                1989                  1990

1. Please indicate     the number    of                                                  MEAN(N)

a. clinic sites operated   by your center:                            1.95 (159)         2.01   (161)          2.06   (164)

b.	 clinic sites at which prenatal      care
     was provided:                                                    1.50 (158)         1.57 (161)            1.59 (165)

2.	 On how many days a week did your center

provide scheduled prenatal appointments

either before 8AM or after 6PM?                                       1.01 (153)         1.15 (157)            1.25 (162)


3. On how many Saturdays a month did

your center provide scheduled

prenatal appointments?                                                0.48   (151)       0.45   (154)          0.50   (159)




D. Funding

1. Compared      with 1988, the amount         of funding available for perinatal         care at your center in 1990
was:

         Larger= 109        Smaller=21               Unchanged=30

2. Please indicate     the percentage      of your center’s        1990 perinatal     clients covered    by:

         a. Private insurance:         6.95%       (148)                       c. Medicaid:                    67.30% (152)
         b. No insurance:             20.70%        ( 149)                     d. Other:                        4.00%0 (155)




                                                             c-2
3.	 To what extent have the fo]]owing factors resulted            in increased   demand       for perinatal    semices
at your center over the past three years?
                                                     Not at alU                     Moderately/
                                                     Somewhat                       Substantially

        a. Medicaid eligibility expansions:             62                             87

        b.	 Medicaid presumptive and
             continuous eligibility provisions:         68                             81




E. PERINATAL OUTREACH

1. To which of the following groups does your center currently               target specific perinatal        outreach
efforts? (Please check all that apply)

        a. Teenagers:              140                c. Non-English      speakers:             92
        b. Substance abusers:       78                d. Other:                                 51

2.	 At which of the following locations       does your center      currently    conduct    perinatal   outreach?
(Please check all that apply)

        a.	 Community                                 d. Schools:                               109
            centers:              98                  e. Welfare offices:                        52
        b. Shops:                 27                  f. Churches:                               59
        c.	 Door-to-door   in the                     g. Other:                                  66
             neighborhood:        43

3.	 Through which of the following media does your center currently                 conduct     perinatal     outreach?
(Please check all that apply)

        a. Television:               34               d. Radio:                                 45
        b. Newspapers:               69               e. Other:                                 49
        c. Pamphlets:               132

4. Compared    with 1988, your center’s outreach        efforts     in 1990 were:

        Greater= 114         Smaller= 11          l%e same=32

5. Compared    with 1988, your center’s outreach        efforts     in 1990 yielded:

        More clients= 124         Fewer clients=7            lhe same numberof clients=20




                                                      c-3
F. PERINATAL SERVICES

1. Please indicate        which of the following        semices were provided      by your center.   If these were
offered on site, please circle On. If these were offered off site--either             through contract, affiliation,
or paid referral--please          circle O&

                                                                     1988             1989             1990

a. Ultrasound:                                                       0n=42            on=51            on=57
                                                                     Off=lol          Off’loo          OH= 103
b. Amniocentesis:                                                    On=6             on=5             00=7
                                                                     0E=136           Off= 143         m= 147
c. Genetic    counseling:                                            on=14            on=17            on=22
                                                                     off=l19          Off= 124         Off= 126
d. Non-stress      testing:                                          on=35            00=48            on=50
                                                                     OE=98            0ff=90           off=95
e. Dental     care:                                                  On=lll           on=l14           on=l15
                                                                     01T=32           0Ef=36           off=43

f. Nutritional     services:                                         on=135           on=139           on=154
                                                                     off=14           off=17           0H=9
h. Health     education:                                             on=139           on=147           0n=158
                                                                     Off=lo           0H=8             0H=6
i. Birthing    classes:                                              0n=84            on=95            on=lo6
                                                                     0E=54            OE=54            (M=52
j. Parentinghfant          care classes:                             0n=87            On=98            On=lzl
                                                                     otT=45           Off-=43          0iT=32
k. Family planning:                                                  on=lso            0n=154          on=160
                                                                     0H=2              0ff=3           off=3
1. Smoking       cessation      programs:                            0n=52             0n=58           on=75
                                                                     0tT=65            0ff=66          0E=65
m. Substance          abuse treatment:                               0n=25             0n=28           on=44
                                                                     off= 102          off= 104        OtT= 103
n. HIV counselinghesting:                                            0n=81             011=117         on=143
                                                                     off=47            0E=29           Off= 18



2. Compared with 1988, the range of perinatal
semices offered by your center in 1990 was:

            Greater=      127        Smaller=6         Unchanged=30

 3.	 Were perinatal clients enrolled             on-site at the center
 in the following programs?

            a.	 Medicaid:                                                Yes=38        Yes=63           Yes=108
                                                                         No=117        No=94            No=56
            b.	 WIC:                                                     Yes=l13       Yes= 123         Yes=134
                                                                         No=43         NO=36            No=31




                                                             c-4
                                                                    1988               1%9              1990

4. Did other government or private social setice
organizations provide services on-site at your
center?                                                             Yes=42             Yes=49           Yes=66
                                                                    No=113             No=11O           No=99

5. Did your center facilitate access to perinatal
care by providing the following semices?

a. Transportation      to and from appointments:                    Yes=74             Yes=89           Yes=97
                                                                    No=80              No=71            No=67
b. Translation      for non-English   speaking    clients:          Yes=120            Yes=127          Yes=133
                                                                    No=32              No=30            No=28
c. Child care during center       appointments:                     Yes=ll             Yes=14           Yes=19
                                                                    No=145             No=147           No=146
d. Home visits:                                                     Yes=76             Yes=lo3          Yes=l15
                                                                    No=78              No=58            No=50



G. STAFFING
                                                                    1988               1989              1990

1. How many full-time equivalents of each
of the following provided perinatal services
on-site at the center?  (N= 167)

a.   Obstetricians:                                                 0.89               0.99              0.93
b.   Family physicians:                                             0.64               0.72              0.75
c.   Certified nurse midwives:                                      0.28               0.33              0.35
d.   Nurse practitioners:                                           0.57               0.65              0.67
e.   Physician assistants:                                          0.17               0.19              0.21



2. Please indicate below: (i) the number of your perinatal provider positions                     which are currently
vacant; (ii) the number which have been vacant for more that six months;                         and (iii) the number
which have been vacant for more than one year. (N= 167)
                                              (i)             (ii)                               (iii)
                                              Numberof        More than                          More than
                                              Vacanaes        six months                         one year

 a. Obstetrician:                                            0.41             0.34               0.20
 b. Family physician:                                        0.25             0.20               0.13
 c. Certified nurse midwife:                                 0.14             0.11               0.07

 3.	 Compared with 1988, the percentage            of your perinatal       providers   with admitting    privileges   at
 local hospitals in 1990 was:

          Larger =44         SmaUer=24           Unchanged =91
H. TIMING OF CARE

1. Please indicate    the percentage     of your center’s    1990 prenatal      clients who entered       care in the:

        a. Fh_st trimester:           50.8%    (N= 156)
        b. Second trimester:          39.1%    (N=154)
        c. Third trimester:           10.3%    (N=139)

                                                                 1988               1989                  1990

2.	 Of those clients who entered care during the
first trimester, and carried to term, what
percentage received at least nine prenatal
medical visits?                                                  69.3%    (67)      7190 (94)             74%      (108)

3. What percentage of your center’s prenatal
clients returned for postpartum visits
during the first eight weeks after delivery?                     66%     (84)       66.4%    (121)        71%      (142)

4. What percentage of all infants born to center
prenatal clients returned for newborn visits
during the first four weeks after birth?                         69.5%     (79)     69.7%    (1 10)       73.9% (128)



I. APPOINTMENTS               FOR CARE

1. If a woman        called   today   to schedule    a pregnancy     test, how long would             she wait for an
appointment?

         Pregnancy tests are offered                             Less than one week:         47
          on a walk-in basis:                  105               One-two weeks:              12
                                                                 More than
                                                                 two weeks:                   3

2. If the pregnancy      test were negative,   would she be referred         to family planning        services?

         Yes=150          NO=16

3. If the pregnancy      test were positive, how long would she wait for her first prenatal                 visit?

         The first perinatal visit is                            Less than two weeks:         75
          provided in conjunction                                Two-four weeks:              58
          with the pregnancy test:             26                One-two months:               7
                                                                 More than
                                                                  two months:                     1

4. Compared      with    1988, waiting     room waiting      times at perinatal     appointments         in 1990 were
generally:

         Shorter= 56           Longer=33       The sarne=68



                                                       C-6
J. CASE MANAGEMENT

1. Does your center currently     provide case management                to promote    the coordination     of services
for perinatal clients?

        Yes=161         NO=6       If YES, please continue.

2. Case management      at your center     is primarily conducted           by (please check only one):

        The client’s primary care doctor:                            4
        The client’s primary care nurse:                            23
        The appointments    secretary:                               o
        A multidisciplinary  team:                                  69

        A center employee whose main
           responsibility is case management
           for perinatal clients:                                   59

        Other:                                                       6

3. Case management      at your center       is   provided     for (please check only one):

        Ail perinatal   clients:                                    129
        All high-risk   perinatal clients:                           22
        Only certain    groups of
            perinatal   clients:                                     16

4. Case management      of perinatal     clients at your center          comprises    (please   check all that apply):

        a. Risk assessment:                                         155
        b. Planning of care:                                        152
        c.	 Assessment of adequacy and
             appropriateness  of services:                          134
        d. Client advocacy:                                         146
        e.	 Contact with other organizations
             to arrange for services /
             schedule appointments:                                  159
        f.	 Assistance with papemork       related to
             WIC, Medicaid, and other programs:                      154
        g. Discharge planning:                                        92

        Coordination    of
         h.	 Medical sewices provided
              on-site at the center:                                 153
         i.	 Medical services provided
              off-site:                                              129




                                                             c-7
Continued:

        j.  Delivery setices:                                    127
        k.	 Social services provided
             on-site at the center:                              143
        1.	 Social services provided
             off-site:                                           117
        m. Nutritional setices:                                  155
        n. Health education:                                     153
        0. Other:                                                 26

5.	 Compared with 1988, the percentage            of all center perinatal    clients case managed       by your staff
in 1990 was:

         Larger= 140             Smaller=3      Unchanged= 11

6.	 Does your center often encounter            problems assuring the timely transfer         of medical records      to
and from facilities to which perinatal          clients are referred?

         For delivecy:                 Yes=41        No=120
         For other care:               Yea=52        No=1O3

7.	 Please estimate the percentage           of cases in which your center         contacts     perinatal   clients   to
reschedule missed appointments:

             71%       (N=151)

8.	 Please indicate the manner          in which you contact      clients   to reschedule     missed appointments
(please check all that apply):

             Mail= 156      Phone= 161          Home visit=112         Other= 15

 9.	 Are perinatal clients at your center routinely attended by either                the same primary        medical
 provider or the same provider team at each perinatal visit?

             Yes=153        NO=6




                                                         C-8

K LIMITATIONS TO CARE              Please indicate the degree to which each of the following factors
limits yourcenter’s ability to provide perinatal services:
                                                                Not at W
               Moderately/
                                                               Somewhat                sub6tantiauy


 1. Shortage of medical staff                                  67                       95
 2. Shortage of nonmedical staff.                              112                      47
 3. High medical staff turnover:                               113                      44
 4. High nonmedical staff turnover:                            135                      22

Difficulty obtaining admitting privileges
at local hospitals for:
  5. obstetricians:                                             132                      13
  6. family physicians:                                         118                     21
  7. certified nurse midwives:                                   81                     40


8. High cost of malpractice insurance:                          68                       88


Difficulty obtaining malpractice insurance for:
 9. obstetric providers:                                        120                      27
 10. all providers:                                             124                      22

Difficulty arranging medical backup for:
 11. OB supervision of certified nurse midwives/
     nurse practitioners:                                        97                      43
 12. OB supervision of family physicians:                        99                      28
 13. coverage during center staff vacations,
      holidays, and weekends:                                    97                      59
  14. consultation for high-risk patients:                      123                      32

  15. Limited relationships with local
     community and government organizations:                    146                      16
  16. Lack of other providers in the community
     willing to treat uninsured or publicly
     insured women:                                              63                      98

 Non-acceptance of certified nurse midwives/
 nurse practitioners:
   17. by the medical community:                                 101                     46
   18. by patients:                                              133                      6

  19. Inadequate center funding:                                 59                      101
  20. Difficulties related to funding obtained
     from many different sources:                                83                      71

 Medicaid-related problems:
  21. slow reimbursement process:                                 93                     69
  22. inadequate reimbursement rates:                             86                     75
  23. limited range of covered services:                          99                     60
  24. restrictive eligibility criteria:                           95                     65
  25. burdensome application procedures:                          72                     91

   26.   Limited case management:                                119                      36
   27.   Limited collocation of setvices:                        111                      33
   28.   Limited space:                                           58                     102
   29.   Other                                                    10                       9



                                                   c-9
Which of these      factors   have become   LESS SERIOUS   or MORE SERIOUS   limitations since
1988?
                                                              More

                                                              Serious            serious


 1. Shortage of medical staffi                                60                  23
 2. Shortage of nonmedical staff                              19                  21
 3. High medical staff turnover:                              17                  14
 4. High nonmedical staff turnover:                            5                  21

Difficulty obtaining admitting privileges
at local hospitals for:
  5. obstetricians:                                             5                 20
  6. family physicians:                                        11                 12
  7. certified nurse midwives:                                 14                 10

 8. High cost of malpractice insurance:                        43                 11

Difficulty obtaining malpractice insurance for:
 9. obstetric providers:                                       16                  12
 10. all providers:                                             9                  11

Difficulty arranging medical backup for:
 11. OB supervision of certified nurse midwives/
      nurse practitioners:                                     27                  13
  12. OB supervision of family physicians:                     14                  13
  13. coverage during center staff vacations,
      holidays, and weekends:                                  31                  13
  14. consultation for high-risk patients:                     20                  18

  15. Limited relationships with local
     community and government organizations:                    6                  28

  16. Lack of other providers in the community
     willing to treat uninsured or publicly
     insured women:                                            56                   9


 Non-acceptance of cz?rtified nurse midwivtxl
 nurse practitioners:
   17. by the medical community:                                11                 24
   18. by patients:                                              3                 20


  19. Inadequate center funding:                                40                 22
  20.	 Difficulties related to funding obtained
      from many different sources:                              36                  12

 Medicaid-related problems:
  21. slow reimbursement process:                               30                 30

  22. inadequate reimbursement rates:                           31                 44

  23. limited range of covered services                         23                 34

  24. restrictive eligibility criteria:                         30                  52

  25. burdensome application procedures:                        37                  37


   26.   Limited case management:                               16                  41
   27.   Limited collocation of services:                       12                  19
   28.   Limited space:                                         61                  21
   29.   Other                                                   6                   1


                                                   c-lo
L CONCLUSION

1. Over the past three years, demand for perinatal care at your center has:

       Increased=     149   Decre&A=7             Not changed=8

2. Over the past three years, your center’s capacity to address             the demand         for perinatal   care in
your service area has:

        Ineread=lo6         Decreased=36            Not changed=22




OPEN-ENDED          QUESTIONS:     [Center     responses        are not included      here]:


3.	 What are the three most significant      barriers     to delivering   perinatal     care that your center      has
faced in the past three years?

4. What special projects, initiatives, or programs has your center undertaken   over the past three
years to improve its ability to respond to perinatal care needs in your service area?




                                                        C-II

                           APPENDIX                   D


                                       NOTES


1.   National Center for Health Statistics (NCHS), 1992. The 1989 U.S. infant
     mortality rate was 9.8 deaths per 1,000 live births. The provisional rate for
     1990 is 9.1 deaths per 1,000; and the provisional rate for 1991 is 8.9 per 1,000.
     These rates represent considerable improvement      over the 1950 rate of 29.2, but
     the pace of improvement    has slowed in recent years and has not been
     experienced equally by all segments of the population.     According to the most
     recent international data, the 1988 U.S. infant mortality rate for whites alone
     places the nation 17th lowest in the world, while the rate for blacks alone
     places it 36th. Native Americans and Puerto Ricans also have infant mortality
     rates considerably higher than the national average.

2.   NCHS,   1988. These are the most recent data available.

3.   U.S. Public Health       (PHS), Healthy People 2000: National Health

                          Semite
     Promotion and Dkease Prevention Objectives, Washington, D. C., 1990, p. 366.


     PHS, Caring for Our Future: The Content of Prenatal Care: A Repoti of the

     PHS Expert Panel on lhe Content of Prenatal Care, Washington, D. C., 1989, p. 2.


4.   Sarah S. Brown, editor:   Institute of Medicine, Prenatal Care: Reaching Mothens
     Reaching Infants, National   Academy Press, Washington, D. C., 1988, p. 4.

     Deborah Lewis-Idema, Increasing Provider Participation, National Governors’
     Association, Washington, D. C., 1988, pp. 20-23. An increasing number of
     physicians who practice obstetrics are unwilling to accept low-income or
     Medicaid-insured  patients because of high malpractice premiums and low
     Medicaid reimbursement     rates.

      In September   1990, the American College of Obstetricians and Gynecologists
      (ACOG) reported that, as a result of the risk of malpractice, 12 percent of its
      members had discontinued their obstetric practices, 24 percent had reduced or
      eliminated services to high-risk women, and 10 percent had decreased the
      number of deliveries they performed.     Average obstetric premiums rose 248
      percent between 1982 and 1989. (ACOG, prepared by Opinion Research
      Corporation,  “Professional Liability and Its Effects: Report of a 1990 Survey of
      ACOG’s Membership,” Washington, D. C., September          1990.) The ACOG
      repeated this sumey in September 1992, and found no statistically significant
      differences from the prior survey.

      In addition, as of 1987, 64 percent    of family physicians who once provided
      obstetric services had discontinued    such care. (American Academy of Family



                                            D-1

        Physicians,   “Family Physicians   and Obstetrics:   A Professional   Liability Study,”
        1987.)

5.      NCHS, “Advance           on Final Natality Statistics, 1989,” MonthZy VW
                             Report
        Statistics	 Report, vol. 80, no. 8, Supplement,
                                                    December 12, 1991, p. 43. These
        1989 data are the most current available.

        Alan  Guttmacher     Institute, Prenatal Care in the United States, New York, N.Y.,
        1987, vol. I, p. iv. Adequacy of care is a function of time of entrance into care
        and number of visits. During the period 1984-86, 24 percent of women entered
        care after the first trimester, 24 percent had fewer than 9 visits, and 34 percent
        received less than adequate care.

6.	     “Cohesion Sought in Medical Aids: Antipoverty          Funds Used for Centralized
        Services,” 771e New York Times, May 22, 1966.

7.	     Alice Sardell,The U.S. 13rpenrnent in Social Medicine: Z4e Community Heahh
        Center Program, 1965-1986, University of Pittsburgh Press, Pittsburgh, PA 1988,
        p. 66.

8.	     Bonnie Lefkowitz, Bureau of Primary Health Care (BPHC), PHS, “The
        Institutionalization of Community Health Centers,” speech to the American
        Public Health Association, November 13, 1983, p. 4. This number represents
        consolidation as well as elimination of grantees.

9.	     As of June 1991, PHS also funded 302 rural community health centers. The
        capacity of these centers to provide perinatal services is addressed in the OIG
        inspection report The Perinatal Service Capacity of The Federally Funded
        Community Health Centers: Rural Centem (OEI-01-90-02331). Some
        community health centers received both Section-330 funds and Section-329
        funds for care provided to migrant workers; an additional 71 centers received
        only Section 329 funding.

 10.	    Section-330 funding was $435 million in FY 1989, $457 million in FY 1990, and
         $478 million in FY 1991. (Health Resources and Services Administration
         (HRSA) FY 1993 Justification of Appropriations,  vol. 1, p. 63.)

         For FY 1992, $532 million was appropriated.  The FY 1993 appropriation is
         $559 million. (BPHC and the Assistant Secretary for Management   and Budget
         [ASMB].)

 11.	    The Public Health Semite provided us with financial data that they collected
         from the centers through the Bureau’s Common Reporting Requirements
         reports and with financial and user data that they collected from CPCP
         applicants through the Perinatal User Profile reports,




                                                D-2

1’3
lL.	     Unless otherwise noted, all of the differences between groups (such as CPCP-
         funded centers and other centers) cited in this report a~e statistically significant
         at the .05 level.

13.	     Centers that served fewer than 200 prenatal clients in 1988 served an average
         of 110 in 1988 and 215 in 1990. Centers that sewed between 200 and 999
         clients in 1988 served an average of 465 in 1988 and 581 in 1990. Centers that
         seined 1,000 or more clients in 1988 sened an average of 1,886 in 1988 and
         1,971 in 1990.

14.	     In 1988--before CPCP funds were awarded--those      centers that eventually
         received funding sened an average of 526 clients; the other centers seined an
         average of 231. In 1990, the CPCP-funded     centers sewed an average of 641
         clients; other centers seined an average of 311.

         According to an internal BPHC draft report, “CPCP 1990 Data Report:

         Moving Ahead,” CPCP-funded       centers served 33,938 pregnant teens in 1990,

         which they report is more than triple the number served in 1988. Also

         according to this report, in 1989, CPCP-funded    centers provided services to 13.4

         percent of all pregnant teens age 15 or younger in the United States. The

         BPHC’S CPCP data, however, does not permit a comparison of CPCP-funded

         centers and other centers.


 15.	    These centers served an average of 372 prenatal clients in 1988 and 504 in
         1990. Centers with perinatal populations that were less than half Medicaid-
         enrolled served an average of 811 clients in 1988 and 845 in 1990.

 16.	    Our survey inquired about the provision of a representative          range of perinatal
         medical and health-promotion       services: ultrasound, amniocentesis,     genetic
         counseling, non-stress testing, dental care, nutritional services, health education,
         childbirth classes, parenting/infant-care     classes, family planning, smoking-
         cessation programs, substance-abuse        treatment, and HIV counseling/testing.

  17.	   Our survey inquired about the provision of four services that facilitate       access to
         care: translation, transportation, home visiting, and child care during
         appointments.

  18.	    Some centers are able to complete enrollment on site. Other centers only
          distribute forms or provide assistance in completing them. In such cases,
          applicants must complete the enrollment process at the appropriate     State
          offices. Some centers reported that staff sometimes accompany clients to the
          State offices to facilitate the process. Some centers complete all nutritional
          assessment and paperwork for WIC on site, but clients must obtain vouchers at
          a different location.




                                               D-3

19.    There wasa 163percent     increase inthenumber     of CPCP-funded    centers that
       provided Medica~d enrollment assistance on site. There wasa433        percent
       increase in the number of centers without CPCP funding that provided this
       service. In 1988, 35 CPCP-funded     centers and 3 other centers provided on-site
       assistance with Medicaid enrollment.    By 1990, 92 CPCP-funded    centers and 25
       other centers offered this service.

20.    Bureau’s   Common   Reporting   Requirements    (BCRR)   Database,   BPHC, PHS.

       This database contains self-reported financial and user data from Section 330
       grantees.   We derived the percentage change in center revenues from data for
       those 146 urban centers (82 percent of urban survey respondents,  or 72 percent
       of all urban grantees) that both responded to our sumey and provided financial
       data to BPHC through the BCRR form for the years 1988, 1989, and 1990.

       Total reported revenues for these 146 centers increased from $415 million in
       1988 to $544 million in 1990. PHS Section-330 grants to these centers
       increased from $163 million in 1988 to $193 million in 1990. Medicaid
       reimbursements    to these centers increased from $84 million in 1988 to $134
       million in 1990. These centers received additional revenues from MCH block
       grants, Section-329 and -340 grants, WIC grants, Title X grants, Title XVIII
       Medicare payments, Title XX payments, other third party payments, patient
       collections, State and local revenues, and donations.

21.    We excluded these 11 centers from the calculation of the statistics     presented    in
       the body of this report (see appendix B for detailed methodology).

22.    In reporting responses to survey questions that solicited information on a scale,
       we combined responses of “moderately” and “substantially” and reported them
       as “seriously” or “serious.”

23.     PHS, Caring for Our Future, p. 2.

        PHS, Healthy People 2000, p. 366.

        In our survey, we used the terms “health education”     for “health promotion”     and
        “social sewices” for “psychosocial services.”

 24.    BPHC, PHS, “Program Expectations,” (hereafter P.E.), May 1, 1991, p. 21.
        This document outlines both requirements of law and regulation, and
        departmental priorities for the centers.

        BPHC, PHS, “Regional     Program    Guidance   Memorandum     84-52,” May 15, 1984.

 25.    Inadequate insurance, limited financial resources, long waits for appointments,
        an inability to arrange child care, and time-consuming  transportation  all
        discourage women from returning to the center. In addition, in some


                                            D-4

        immigrant communities, women are discouraged from leaving their homes for
        at least one month after delivery. Some women may receive follow-up care
        from other providers, but it is unclear to what extent the centers track these
        women after delivery.

26.	    NCHS, 1992. The 1989 data for       national rates of entry into care are the most
        recent available. The average of    62.2 percent for minority women was
        calculated from rates for Mexican    American, Puerto Rican, Cuban, Central and
        South American, other Hispanic,     Chinese, Japanese, Filipino, Hawaiian, other
        Asian, American Indian/Alaskan      Native, and Black women.

        The BPHC provided the rate for women in federally designated Healthy Start
        project areas. The BPHC calculated this rate from information reported by the
        15 projects for a time period between 1984 and 1989. The project areas are:
        Aberdeen, South Dakota (rates are for the Northern Plains Native American
        populations in North Dakota, South Dakota, and Nebraska); Baltimore,
        Maryland; Birmingham, Alabama; Boston, Massachusetts;      Chicago, Illinois;
        Cleveland, Ohio; Detroit, Michigan; Lake County, Indiana; New Orleans,
        Louisiana; New York, New York; Oakland, California; the Pee Dee region,
        South Carolina; Philadelphia, Pennsylvania; Pittsburgh, Pennsylvania; and
        Washington, D.C.

27.	    NCHS, Montidy VI[al Stattitics Repoti, 1991, p. 43. These     1989 data are the
        most recent available.

28.	    ACOG, S[andard-sfor Obstetric-Gynecological Services, 7th cd., Washington,
        D. C., 1989, p. 16.

        The PHS has required that “all centers, regardless of size, must assure that the
        semices that they deliver conform to the Standards for Obstetn”c-Gynecolo@”c
        Services” (“Perinatal Care: How to Establish Perinatal Services in Community
        Health Centers,” PHS, 1985, p. 96.)

         A 1989 PHS report, Caring for Our Future: The Content of Prenatal Care,
         suggests slightly different guidelines. This report recommends that healthy
         women receive nine prenatal visits during a first pregnancy and seven prenatal
         visits during subsequent pregnancies (p. 50). The report suggests that women
         at risk, because of either psychosocial or physical factors, might require more
         prenatal visits (p. 71). Psychosocial and physical risk factors include inadequate
         personal support systems, single marital status, adolescence, advanced age, high
         stress and anxiety, less than high school education, low income, inadequate
         housing, inadequate nutritional resources, communication      barriers, smoking,
         alcohol abuse, and illicit drug use (p. 79).

 29.	    Nonresponses   may have resulted    in an underestimate   of the percentage   of
         centers with such vacancies.



                                              D-5

30.    U.S. General              Office, Medical Malpractice: Data on Claims Needed
                          Accounting
       to Evaluate Health Centers’ Insurance Alternatives @IRD-91-98), Washington,
       D. C., May 1991, p. 1. These data are for all Section-330 grant recipients.

31.    The clinic’s midwives had originally been covered                under its general      liability
       policy, but must now be insured individually.

32.    P.L. 102-501. Under the Ff’C~ center providers will be defended by the
       Justice Department    in any medical malpractice litigation, and judgments will be
       paid out of a Justice Department       fund, into which the centers will pay annual
       contributions.  This liability protection will be provided for three years, after
       which time the financial benefits of the arrangement will be assessed.

33.    On average,     seven   percent     of each   center’s   perinatal   clients   were   privately
       insured   and   four percent      were   covered     by other   mechanisms      in 1990.

34.    The Omnibus Budget Reconciliation Act of 1990 required States to locate
       eligibility workers at sites other than AFDC enrollment sites, including CHCS,
       as of July 1991.

       Several administrators speculated that States lacked the funds                    needed to
       implement outstationing of eligibility workers. At one center,                   a State eligibility
       worker was stationed on site, but her effectiveness was limited                   because she was
       unable to access the regional Medicaid database and was not                      allowed to make
       long-distance telephone calls to the agency office.

35.    OIG, Medicaid Expansions for Prenatal Care: State and Local Implementation
       (OEI-06-90-00160), January 1992, appendix E.

36.    Bonnie    Lefkowitz,     BPHC, PHS, written communication                to OIG, December           24,
       1991.

 37.   OIG, Draft report Medicaid Expansions for Prenatal Care: State Update
       (OEI-06-90-00161), May 1992.

        At one site we visited, where only 5 percent of the perinatal clients were
        covered by Medicaid and 70 percent were uninsured (most clients were working
        poor and failed the asset test), the director noted that grant funds are necessary
        to subsidize sliding scale fees.

 38.    P. E., pp. 4-5.

 39.    Centers report a range of coalition activities, including formulation of
        recruitment and retention strategies; sharing of services; use of a common
        medical record; on-line appointment,    registration, and data transfer with local
        hospitals; coordination of referrals; improved communication;      telephone




                                                     D-6

       hotlines; public forums forperinatal   issues; media relations; contact with
       legislators; consultation with governmental agencies; and community education.

40.    P. E., p. 18.

41.	   Our survey only addressed admitting privileges. During interviews, center staff
       reported hospital restrictions on the delivery privileges of certified nurse
       midwives and family physicians.

42.    P. E., p. 19.

43.    HRS~     FY 1993 Justification   of Appropriations,   vol. 1, p. 61.

44.    BPHC and ASMB data.




                                             D-7

